TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Customer Account Data Engine 2
                    Is Making Progress Toward Achieving
                     Daily Processing, but Improvements
                  Are Warranted to Ensure Full Functionality



                                      September 28, 2011

                              Reference Number: 2011-20-109




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE CUSTOMER ACCOUNT DATA                             controls, of which 65 were classified as planned
ENGINE 2 IS MAKING PROGRESS                           controls (i.e., the control is not in place and there
TOWARD ACHIEVING DAILY                                is an activity planned to implement the control).
PROCESSING, BUT IMPROVEMENTS                          However, additional improvements and
ARE WARRANTED TO ENSURE FULL                          adherence to all criteria will help ensure that the
FUNCTIONALITY                                         CADE 2 functions as intended and that the
                                                      January 2012 release date is met. The CADE 2
                                                      Daily Processing Project did not ensure
Highlights                                            business rules and requirements were always
                                                      fully or timely developed, the Electronic Fraud
Final Report issued on                                Detection System was properly recorded in the
September 28, 2011                                    Item Tracking Reporting and Control System,
                                                      and open issues were properly addressed and
Highlights of Reference Number: 2011-20-109           closed prior to milestone exits. Further, the
to the Internal Revenue Service Chief                 Daily Processing Project did not follow a
Technology Officer.                                   consistent ELC path, and the Work Breakdown
                                                      Schedule was incomplete.
IMPACT ON TAXPAYERS
                                                      WHAT TIGTA RECOMMENDED
The mission of the Customer Account Data
Engine (CADE) 2 Program is to provide                 TIGTA recommended that the Chief Technology
state-of-the-art individual taxpayer account          Officer ensure a risk mitigation plan is formally
processing and technologies to improve service        developed and documented and all open issues
to taxpayers and enhance Internal Revenue             are addressed and closed prior to approving
Service (IRS) tax administration. Once                milestone exits. TIGTA also recommended
completed, the new modernization environment          several other system development process
should allow the IRS to more effectively and          improvements.
efficiently update taxpayer accounts, support         In its response, the IRS agreed with two of
account settlement and maintenance, and               TIGTA’s recommendations and plans to take
process refunds on a daily basis, all of which will   appropriate corrective action. The IRS
contribute to improved taxpayer services.             disagreed with TIGTA’s recommendation to
WHY TIGTA DID THE AUDIT                               ensure that all open issues are addressed and
                                                      closed prior to exiting a milestone. The IRS
The overall objective of this review was to           stated its guidance does not list specifics around
assess the logical and physical design of the         what constitutes an open issue, leaving some
CADE 2 Daily Processing activities and ensure         flexibility to make risk-based decisions on
the Daily Processing design is secure, the            whether a given open issue will impact efforts in
design satisfies the documented approved              the following milestones or undermine the
requirements, and the project management              success of the project. However, the design
practices adhere to the Enterprise Life Cycle         meeting documentation (dated 10 days prior to
(ELC) standards and processes for the related         the milestone exit) indicated the design impact
milestones (through Milestone 4a).                    of the open issues was not known. Exiting a
                                                      milestone without properly addressing critical
WHAT TIGTA FOUND                                      open issues could result in rework, potentially
The IRS is closer to achieving one of its             impact the logical or physical design, and result
modernization goals, daily processing of              in unnecessary costs.
taxpayer accounts. In addition, TIGTA
determined the IRS has taken steps to address
security requirements during the Daily
Processing Project. The IRS prepared a System
Security Plan and documented 171 security
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 28, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Customer Account Data Engine 2 Is Making
                             Progress Toward Achieving Daily Processing, but Improvements Are
                             Warranted to Ensure Full Functionality (Audit # 201120001)

 This report presents the results of our review of the Customer Account Data Engine 2 Daily
 Processing. The overall objective of this review was to assess the logical and physical design of
 the Customer Account Data Engine 2 Daily Processing activities and ensure the Daily Processing
 design is secure, the design satisfies the stated documented approved requirements, and the
 project management practices adhere to the Enterprise Life Cycle standards and processes for the
 related milestones (thru Milestone 4a). This review was requested by the Chief Technology
 Officer and is included in our Fiscal Year 2011 Annual Audit Plan. It addresses the major
 management challenge of Modernization of the Internal Revenue Service.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or Alan
 Duncan, Assistant Inspector General for Audit (Security and Information Technology Services),
 at (202) 622-5894.
                                   The Customer Account Data Engine 2
                           Is Making Progress Toward Achieving Daily Processing,
                        but Improvements Are Warranted to Ensure Full Functionality




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Is Nearing Its
          Modernization Goal to Achieve Daily Processing
          of Taxpayer Accounts ................................................................................... Page 3
          Improvements Are Warranted in Several Management
          Areas ............................................................................................................. Page 5
                     Recommendations 1 and 2: .............................................. Page 8

          The Daily Processing Project Is Not Following a
          Consistent Enterprise Life Cycle Path, and the
          Work Breakdown Schedule Is Incomplete ................................................... Page 9
                     Recommendation 3:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Enterprise Life Cycle Overview .......................................... Page 17
          Appendix V – Transition State 1 Integration Reviews ................................. Page 18
          Appendix VI – Glossary of Terms ................................................................ Page 20
          Appendix VII – Management’s Response to the Draft Report ..................... Page 23
                   The Customer Account Data Engine 2
           Is Making Progress Toward Achieving Daily Processing,
        but Improvements Are Warranted to Ensure Full Functionality




                      Abbreviations

CADE            Customer Account Data Engine
EFDS            Electronic Fraud Detection System
ELC             Enterprise Life Cycle
IMF             Individual Master File
IRS             Internal Revenue Service
ITRAC           Item Tracking Reporting and Control
                                 The Customer Account Data Engine 2
                         Is Making Progress Toward Achieving Daily Processing,
                      but Improvements Are Warranted to Ensure Full Functionality




                                              Background

In August 2008, the Internal Revenue Service (IRS) Commissioner established the Modernized
Taxpayer Account Program Integration Office to manage the transition of current individual
income tax processing, which consists of multiple computer systems for processing tax returns,
payments, and other transactions affecting individual
taxpayer accounts, into a more consolidated system.
                                                               The Customer Account Data
Working in conjunction with IRS business owners, the         Engine 2 Program is the highest
Modernized Taxpayer Account Program Integration              priority information technology
Office decided to integrate elements from both the             modernization project in the
                                      1
existing Individual Master File (IMF) and current               Internal Revenue Service.
Customer Account Data Engine (CADE) processes into a
new CADE 2 Program. The proposed plan incrementally transfers taxpayer accounts from the
current IMF and CADE processing systems to a new CADE 2 relational database.
The CADE 2 Program is the top information technology modernization project in the IRS. The
CADE 2 strategy involves three phases:
       •    Transition State 1. Modifies the IMF from a weekly cycle to daily processing,
            establishes a new relational database to store all individual taxpayer account
            information, and provides management tools to more effectively use data for
            compliance and customer service. The IRS plans to implement Transition State 1 in
            January 2012.2
       •    Transition State 2. Launches a single processing system where applications directly
            access and update the taxpayer account database. It will continue efforts toward
            addressing previously identified financial material weaknesses. The IRS plans to
            implement Transition State 2 in January 2014. We recently learned that lack of funding
            may put delivery of this phase at risk. The IRS is working to identify funding it could
            use to begin high-level planning efforts in an attempt to keep this on track.
       •    Target State. Consists of a single system using elements of the IMF and current CADE,
            eliminating all transitional applications used to link the current CADE, the IMF, and the
            Integrated Data Retrieval System. The complete solution also plans to address all the
            financial material weaknesses. As of April 28, 2011, the IRS had not established a
            Target State implementation date.



1
    See Appendix VI for a glossary of terms.
2
    See Appendix V Transition State 1 Integration Reviews.
                                                                                              Page 1
                              The Customer Account Data Engine 2
                      Is Making Progress Toward Achieving Daily Processing,
                   but Improvements Are Warranted to Ensure Full Functionality



The CADE 2 Daily Processing Project is not a new application development project. Instead, it
will enhance the existing IMF by processing taxpayer accounts on a daily schedule, rather than
weekly schedule. To achieve high efficiency, the CADE 2 Program has decided to leverage
existing systems and design artifacts.
The CADE 2 Daily Processing Project should improve processing and systems associated with
managing individual taxpayer accounts on a daily basis. The Daily Processing Project charter
defines the project purpose, scope, goals, and expected outcomes. The Daily Processing Project
will address risk factors inherent in the current CADE approach, define target-state applications
and processes used for managing the daily processing application over individual taxpayer
accounts, and begin transition to the target state. The Daily Processing Project will be
accountable for achieving the defined goals and managing and integrating all required
components, to include four subprojects:
    1)   Daily updates to the Integrated Data Retrieval System.
    2)   Adjustments to notices.
    3)   Transaction processing.
    4)   Preparing daily loads to update the CADE 2 database.
By moving to daily processing, the CADE 2 Daily Processing Project will provide immediate
and obvious benefits including faster refunds to taxpayers, faster posting of payments, and more
efficient adjustments to taxpayer accounts.
This review is one of a series of audits for providing assessments of the CADE 2 Program as part
of our Security and Information Technology Audit Strategy for Fiscal Years 2010 and 2011. The
Treasury Inspector General for Tax Administration has recently completed audits of the CADE 2
Program Management Office and Database Implementation.3
This review was performed at the Modernization and Information Technology Services
organization facility in New Carrollton, Maryland, during the period January through May 2011.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.

3
 The Customer Account Data Engine 2 Program Management Office Implemented Systems Development
Guidelines; However, Process Improvements Are Needed to Address Inconsistencies (Audit Number 201020025,
draft report issued August 11, 2011), and The Customer Account Data Engine 2 Database Implementation Project
Made Progress in Design Activities, but Improvements Are Needed (Reference Number 2011-20-110, dated
September 20, 2011).
                                                                                                      Page 2
                            The Customer Account Data Engine 2
                    Is Making Progress Toward Achieving Daily Processing,
                 but Improvements Are Warranted to Ensure Full Functionality




                                Results of Review

The Internal Revenue Service Is Nearing Its Modernization Goal to
Achieve Daily Processing of Taxpayer Accounts
The CADE 2 Daily Processing Project has steadily progressed from project initiation
(Milestone 1) through Physical Design (Milestone 4a). As a result, the IRS is closer to achieving
one of its modernization goals, daily processing of taxpayer accounts. Each milestone presents
new risks and challenges from which the Daily Processing Project team has gained invaluable
information. For example, the IRS stated for daily processing to be successful, the processing
start date needed to be changed from Friday to Thursday. Additionally, due to the critical nature
of the system to the IRS mission, the IRS documented security requirements for Daily
Processing and will use secure file transfer protocol to protect data from unauthorized access,
modification, and corruption. As a result, the IRS gained a higher degree of confidence in
achieving daily processing.
On January 29, 2010, the CADE 2 Daily Processing Project initiated efforts to accomplish
objectives for Milestone 3, Logical Design. Specifically, these objectives establish:
   •   Context for CADE 2 Transition State 1, Logical Design.
   •   Current state and high-level relationships to systems affected by the CADE 2 solution.
   •   Scope of CADE 2 Transition State 1 and projects within the context of systems.
   •   Changes required to current processing cycles upon daily processing implementation.
   •   CADE 2 data model as a data-centric foundation for the future.
   •   Introduction of architectural components that are the foundation of the logical design.
On September 30, 2010, the CADE 2 Daily Processing Project initiated efforts to accomplish
objectives for Milestone 4a, Physical Design. Specifically, these objectives:
   •   Build confidence and demonstrate achievement of a successful completion of CADE 2
       Transition State 1, Physical Design.
   •   Walk through the physical design from end to end.
   •   Validate that key physical design components are in place, including data, applications,
       infrastructure, security, and performance.
   •   Validate that integration points were identified and incorporated into the physical design.
   •   Ensure the physical design is sound and consistent with design principles.


                                                                                           Page 3
                              The Customer Account Data Engine 2
                      Is Making Progress Toward Achieving Daily Processing,
                   but Improvements Are Warranted to Ensure Full Functionality



    •   Discuss various scenarios associated with daily processing, weekly processing, and error
        conditions.
    •   Confirm that outstanding physical design issues have been addressed.
    •   Review and show confidence in the soundness of the physical design, using established
        Physical Design Soundness Criteria.
An independent firm reviewed and evaluated the success criteria for CADE 2 Daily Processing
and validated the IRS’s conclusion that Daily Processing can be achieved. As a result of the
progress achieved and the independent confidence assessment, the CADE 2 Daily Processing
Project received a “go” decision.
        Figure 1: Approach for Conducting the Go/No-Go Readiness Review




Source: CADE 2 Program, Road to Transition State 1 Go No-Go Confidence Assessment Result, dated
February 11, 2011. CTO = Chief Technology Officer. MS4A Exit = Milestone 4a exit.

Security during the Daily Processing Project was planned
According to the CADE 2 Security Framework document, because the IMF will not undergo any
major changes to its architecture, the security controls will largely remain as they exist.
However, we determined that the IRS has taken steps to address security during the Daily
Processing Project. During the early phases of development, the IRS prepared a System Security
Plan, which documents the planned controls for the application and addresses the security
concerns that may affect the system’s operating environment. The System Security Plan

                                                                                                  Page 4
                                 The Customer Account Data Engine 2
                         Is Making Progress Toward Achieving Daily Processing,
                      but Improvements Are Warranted to Ensure Full Functionality



highlights 171 security controls, representing 19 control families, and differentiates between
those that are planned controls (i.e., the control is not in place and there is an activity planned to
implement the control) versus those that are inherited as part of the IRS organizational level.
The CADE 2 Daily Processing Project’s Controls Requirements Matrix identified 65 planned
controls and 106 inherited controls.
In addition, the IRS contracted with an independent firm to complete a threat susceptibility
analysis on CADE 2 Transition State 1. The contractor’s report concluded that threats to
CADE 2 Transition State 1 by external interfaces and databases appear to be minimal. Attacking
through an external partner by corrupting the data imported through the air would be difficult
and could primarily be avoided by proper validity checks during daily processing. The other
attacks will likely be reasonably mitigated by existing security mechanisms already in place at
the IRS, though conclusions about the Integrated Production Model are conditional upon
database configuration and implementation, and these details were not known during the time
period of this audit.
The Daily Processing team identified and documented additional security controls for CADE 2.
For example, Daily Processing will encrypt data moving between systems that are not located in
the same data center. Data moving between systems within the same data center will not be
encrypted. Further, upon reviewing the Design Specification Report, officials from the
Cybersecurity organization presented a list of about 17 different security concerns for
consideration. These concerns were addressed in the final Design Specification Report.
Given the timing of our review and the life cycle phase of the CADE 2 Daily Processing Project,
we could not test whether the identified security controls were operating as designed. We plan to
evaluate the adequacy of these security controls during a future audit of the CADE 2 system.

Improvements Are Warranted in Several Management Areas
Overall, the CADE 2 Daily Processing team is managing the project successfully. However, the
CADE 2 Daily Processing Project did not ensure: 1) business rules and requirements were
always fully and timely developed in adherence to governing criteria; 2) the Electronic Fraud
Detection System (EFDS) was properly recorded in the Item Tracking Reporting and Control
(ITRAC) System for proper tracking, managing, and completion of a risk mitigation strategy;
and 3) open issues were properly addressed and closed prior to milestone exits.

Efficient management and development over business rules are needed
The Enterprise Life Cycle (ELC)4 requires that business rules be gathered and completed during
the Logical Design Phase (or in this case, Milestone 3). The CADE 2 Requirement Management
Plan is the primary source for information on the activities, responsibilities, and resources used

4
    Refer to Appendix IV for an overview of the ELC.
                                                                                                Page 5
                            The Customer Account Data Engine 2
                    Is Making Progress Toward Achieving Daily Processing,
                 but Improvements Are Warranted to Ensure Full Functionality



to manage, monitor, and control requirements for CADE 2. The Requirement Management Plan
states that requirements traceability is a key component of requirements management.
Traceability describes the life of a requirement from its source through development and actual
deployment into operations. Traceability also enables requirements change management by
helping to more clearly identify the impacts of changing a requirement.
However, the CADE 2 Daily Processing business rules were not gathered and completed as
required and were still being developed after the December 2010, Milestone 3 exit. For example,
when the Milestone 3 exit occurred, the business rule that determines eligibility of accounts for
daily processing was not developed. Additionally, prior to the Milestone 4a exit, 16 business
rules were not written as required by the ELC. These business rules related to incomplete
operational scenarios such as:
   •   Elongated day: The completion of a daily cycle in a day other than when it was initiated
       could affect the IRS’s ability to meet scheduled completion dates for dependent processes
       (e.g., refund reviews/payment dates, notice mailings, Integrated Data Retrieval System
       updates).
   •   Elongated week: When the weekly processing cycle cannot be completed in time for the
       Integrated Data Retrieval System weekend update (completed by Monday 6 a.m.), Tax
       Examiners will not get posted account information from the last day of the week or from
       the weekly cycle, the weekend Taxpayer Information File analysis will not be run timely,
       and the availability of the Integrated Data Retrieval System may be affected.
   •   Electronic Fraud Detection System: The timing of the daily EFDS inputs is different for
       the filing of electronic returns (which is from the prior day) than for the filing of paper
       returns (which is from the current day).
Originally, both CADE 2 Milestone 3 and 4a exits were combined into an April 2011 exit, with
all activities being structured around one single exit. However, due to budget issues, Milestone 3
was subsequently separated into an exit date of December 2010. Although the CADE 2 Daily
Processing ensured key activities and products were identified, business rules were not
completed prior to this new Milestone 3 exit. Additionally, new business rules developed after
the milestone exit could also require development of additional customer requirements. For
example, after the Milestone 3 exit, 225 new business requirements were added (55 exclusive to
Daily Processing). Without business rules, customer requirements may not effectively function,
thereby impinging CADE 2 system performance. The risk of incomplete business rules could
contribute to untraced requirements, which may adversely impact systems design and testing
activities. We previously reported on this condition in our review of the CADE 2 Program




                                                                                            Page 6
                                The Customer Account Data Engine 2
                        Is Making Progress Toward Achieving Daily Processing,
                     but Improvements Are Warranted to Ensure Full Functionality



Management Office5 and recommended that the Chief Technology Officer ensure all
requirements and business rules (including those for the Daily Processing Project) are identified
and sufficiently traced, controlled, and managed.

A risk mitigation plan for the EFDS needs development
The EFDS is a critical upstream system used to detect potentially fraudulent tax returns and is
considered an impacted system that requires the shift from weekly to daily processing. The
CADE 2 Daily Processing Project utilizes the ITRAC System to document and monitor project
risks. The Performance Monitoring and Program Reporting Process states project risks should
be documented and monitored in the ITRAC System. Although the EFDS is an open operating
scenario and a known risk, it is not documented in the ITRAC System. Therefore, a risk
mitigation plan has not been formally developed to mitigate the risk in the timing difference
identified for paper returns (as discussed previously, the timing of the daily EFDS inputs is
different for paper returns than for electronic returns).
From Processing Years 2008 through 2010, the EFDS identified, on average, 603,179 fraudulent
refund returns totaling about $4 billion and intercepted 518,896 returns totaling about
$3.7 billion in fraudulent refunds. Without a proper EFDS risk mitigation plan to address the
timing issue of paper returns, some fraudulent returns could go undetected, resulting in a
monetary loss for the IRS. Figure 2 presents aggregated (i.e., both paper and electronic)
fraudulent refund return statistics for Processing Years 2008–2010.
            Figure 2: Fraudulent Returns and Refunds Identified and Stopped
                              Processing Years 2008–2010

                           Number of            Number of            Amount of        Amount of
      Processing           Fraudulent           Fraudulent           Fraudulent       Fraudulent
         Year                Refunds             Refunds               Refunds         Refunds
                            Identified           Stopped              Identified       Stopped

          2008               380,656              306,128          $1,959,992,377   $1,683,912,973
          2009               457,369              369,257          $2,988,945,590   $2,517,094,116
          2010               971,511              881,303          $7,300,996,194   $6,931,931,314
        Average              603,179              518,896          $4,083,311,387   $3,710,979,467
    Source: IRS fraudulent tax return statistics for Processing Years 2008–2010.


5
 The Customer Account Data Engine 2 Program Management Office Implemented Systems Development
Guidelines; However, Process Improvements Are Needed to Address Inconsistencies (Audit Number 201020025,
draft report issued August 11, 2011).

                                                                                                    Page 7
                                  The Customer Account Data Engine 2
                          Is Making Progress Toward Achieving Daily Processing,
                       but Improvements Are Warranted to Ensure Full Functionality



Milestone exit should have been a conditional exit
The purpose of the Milestone Readiness Review is to determine whether a project is in
compliance with ELC requirements and ready to begin the milestone exit process. The
Milestone Readiness Review eliminates last minute project delays and rework, and helps
streamline decisions made by the project’s governance organization. The Milestone Readiness
Review looks for the process artifacts that were identified for that phase of development in the
CADE 2 Project Tailoring Plan. The CADE 2 Program Executive Steering Committee
performed the Milestone Readiness Reviews and gave them “Unconditional” exits.6 However,
during the Physical Design Review on April 7 and 8, 2011, there were open issues at the
Milestone 3 exit which the Daily Processing Project team stated would be closed prior to the
formal Milestone 4a exit. The CADE 2 Daily Processing Project team ensured the open issues
were tracked. Exiting a milestone without properly addressing critical open issues could result in
rework, potentially impact the logical and/or physical design, and result in unnecessary costs.

Recommendations
The Chief Technology Officer should ensure:
Recommendation 1: A risk mitigation plan is formally developed and documented in the
ITRAC System for any impacted systems, such as the EFDS.
           Management’s Response: IRS management agreed with this recommendation. A
           risk (ITRAC #15137) was opened on May 10, 2011, for Timely Processing of Potential
           Fraud Data for Paper Returns in the EFDS. A mitigation plan was documented and
           successfully executed.
Recommendation 2: All open issues are properly addressed and closed during the Milestone
Readiness Review prior to approving an unconditional exit.
           Management’s Response: IRS management disagreed with this recommendation.
           The IRS guidance does not list specifics around what constitutes an “open issue” at
           milestone exit, leaving some flexibility for the Executive Steering Committee to make
           risk-based decisions on whether or not a given open issue is at a stage where it will
           impact efforts in the following milestones or undermine the success of the project. In the
           case of CADE 2 Daily Processing, there was full understanding by the CADE 2
           Executive Steering Committee at the milestone exit that the open issues had been
           adequately addressed and were near resolution. Each issue had a viable solution and only
           needed full alignment by all stakeholders and/or a fully documented solution. While it is
           clearly optimal for all open issues to be properly addressed and fully closed during the
           Milestone Readiness Review, the IRS has chosen to leave some flexibility in the hands of

6
    This means the project has addressed all known risks or conditions.
                                                                                              Page 8
                               The Customer Account Data Engine 2
                       Is Making Progress Toward Achieving Daily Processing,
                    but Improvements Are Warranted to Ensure Full Functionality



        its Executive Steering Committees in this area, based on the status of the open issues at
        milestone exit and the impacts the status will have on the outcome of the project.
        Currently, all Daily Processing design issues have been resolved and closed.
        Office of Audit Comment: Documentation of the April 7 and 8, 2011, design
        meetings defined the open issues as follows, “technical narrative not completed/design
        impact still being determined.” Yet, on April 18, 2011, an unconditional exit was
        approved for the project to proceed to the next milestone. We agree there might need to
        be some flexibility for the IRS to make risk-based decisions on open issues before
        proceeding to another milestone. However, in this instance, the design meeting
        documentation indicated the design impact of the open issues was not known. Exiting a
        milestone without properly addressing critical open issues could result in rework,
        potentially impact the logical or physical design, and result in unnecessary costs.

The Daily Processing Project Is Not Following a Consistent Enterprise
Life Cycle Path, and the Work Breakdown Schedule Is Incomplete
The CADE 2 Daily Processing Project Tailoring Plan states the project selected will follow the
ELC Iterative Path (Figure 3). In the Iterative Path development life cycle (also called an
iterative development model), projects start with initial planning and end with deployment, with
repeated cycles of requirement discovery, development, and testing. In the ELC Iterative Path,
the components are developed through a series of constrained iterations as the first iteration
focuses on the initial requirements and the subsequent iterations build on the previous iterations
by adding to the functionality. Characteristics of the Iterative Path include:
    •   Fixed Length Iterations (Milestone 1, 2, 3, 4a, 4b, and 5). Time boxing7 introduces a
        near-term milestone that forces all stakeholders to converge and actually deliver working
        software at regular intervals.
    •   Just-In-Time Requirements Elaboration. Project planning depends on identifying the
        most important capabilities and characteristics of the system.
    •   Early and Continuous Testing. Early and continuous testing will deliver cohesive,
        valuable increments of functionality.
    •   Continuous Learning and Adaption. All stakeholders are to reflect on the results of the
        process often, learn from the examination, and then adapt the process to produce results
        in the next iteration.




7
 Architecture development is often time-boxed with an agreement to pass the architecture to the development team
after a set period of time as opposed to leaving completion unbounded.
                                                                                                         Page 9
                             The Customer Account Data Engine 2
                     Is Making Progress Toward Achieving Daily Processing,
                  but Improvements Are Warranted to Ensure Full Functionality



   •   Dedicated Stakeholder Involvement. All stakeholders should be dedicated to the project
       and should provide timely feedback in developing functionality of the product.
                          Figure 3: Illustration of the Iterative Path




Source: CADE 2 Program Management Office, Database Implementation team.

IRS Executives stated the Daily Processing Project is following the ELC Waterfall Path,
contradicting the Daily Processing Tailoring Plan document which uses the ELC Iterative Path.
The Waterfall Path development model is a sequential design process which flows steadily
downward through phases. The Daily Processing Project team has successfully utilized the
Iterative Path methodology through the Business System Requirements Report and the Lessons
Learned document. Early and continuous testing is another key characteristic of the Iterative
Path; however, development and testing for Daily Processing were not accomplished throughout
the project or through Milestone 4a. The Integrated Master Schedule reflects CADE 2 Daily
Processing testing and development as starting in Milestone 4b. Testing at this stage is
consistent with the Waterfall Path. As a result, the CADE 2 Daily Processing Project is being
managed using a combination of both the Waterfall and Iterative Paths. An ELC path should be
selected and documented to fully realize intended benefits.




                                                                                      Page 10
                              The Customer Account Data Engine 2
                      Is Making Progress Toward Achieving Daily Processing,
                   but Improvements Are Warranted to Ensure Full Functionality



The Work Breakdown Schedule does not comply with all ELC criteria
The CADE 2 Daily Processing Project Tailoring Plan identified project deliverables through
Milestone 5 (System Deployment Phase) which were not reflected in the Work Breakdown
Schedule or subsequent iterations through Milestone 4a. The Work Breakdown Schedule is a
deliverable-oriented grouping (deliverables) of project elements that organize and define the total
work scope of the project. The Work Breakdown Schedule must incorporate the entire life cycle,
tailored to represent the scope of the project/release from beginning to end, to the best of the
team’s ability at the time of creation. The ELC guidance requires the Work Breakdown
Schedule to be updated and baselined for each upcoming milestone phase, prior to exiting the
previous milestone. In contrast, the CADE 2 Daily Processing Project Tailoring Plan states the
project will follow the ELC Iterative Path, whereby system requirements and functionality
continually evolve. Therefore, the Work Breakdown Schedule is not consistent with the Project
Tailoring. However, to ensure consistency with the ELC, the CADE 2 Daily Processing Project
team has performed a baseline of the Work Breakdown Schedule at the end of each milestone.
Throughout project duration, all non-milestone Work Breakdown Schedule activities require a
resource owner to provide activity input. However, there were 32 (of approximately 700)
CADE 2 Daily Processing related non-milestone activities included in the November 24, 2010,
Work Breakdown Schedule that did not identify a resource owner. Although the 32 activities
were not listed on the November 24, 2010, critical path, if completion of an activity is
excessively delayed, it can become part of the critical path.
The CADE 2 Daily Processing Project team should ensure all deliverables identified in the
CADE 2 Daily Processing Project Tailoring Plan are detailed in the Work Breakdown Schedule
and all activities are appropriately traced and monitored by a resource owner. Identifying an
activity resource owner helps mitigate the risk of incomplete or delayed work. Further, delays in
completing activities on the critical path can impede the January 2012 scheduled deployment
date. We previously reported on this condition in our review of the CADE 2 Program
Management Office8 and recommended that the Chief Technology Officer ensure all key
activities associated with the development and deployment of the CADE 2 system are included
in the Work Breakdown Schedule, including those for the Daily Processing Project.




8
 The Customer Account Data Engine 2 Program Management Office Implemented Systems Development
Guidelines; However, Process Improvements Are Needed to Address Inconsistencies (Audit Number 201020025,
draft report issued August 11, 2011).
                                                                                                  Page 11
                            The Customer Account Data Engine 2
                    Is Making Progress Toward Achieving Daily Processing,
                 but Improvements Are Warranted to Ensure Full Functionality



Recommendation
The Chief Technology Officer should:
Recommendation 3: Require a documented and chosen ELC path for CADE 2 Daily
Processing to ensure project consistency and full realization of the benefits of the selected ELC
path.
       Management’s Response: IRS management agreed with this recommendation for
       future projects. The ELC is intended for projects, not programs. There is clear guidance
       and structure in place at the IRS to guide information technology investments in choosing
       and following an appropriate ELC path. For Transition State 1, the IRS made a business
       decision to leverage the iterative approach for the Database Implementation project.




                                                                                           Page 12
                                 The Customer Account Data Engine 2
                         Is Making Progress Toward Achieving Daily Processing,
                      but Improvements Are Warranted to Ensure Full Functionality



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the logical and physical design of the CADE 2
Daily Processing activities and ensure the Daily Processing design is secure, the design satisfies
the stated documented approved requirements, and the project management practices adhere to
the ELC1 standards and processes for the related milestones (thru Milestone 4a).2 To accomplish
this objective, we:
I.         Determined whether the Daily Processing Project management team follows the ELC
           system development process to achieve daily processing and replace the current IMF
           applications and current CADE applications with a single, state-of-the art solution.
           A. Reviewed the project charter to verify whether it contained key information
              (e.g., impacted systems, identification of stakeholders). We also compared the
              project charter with the CADE 2 program charter to identify any gaps.
           B. Reviewed the CADE 2 Daily Processing ELC Tailoring Plan to validate whether the
              plan includes all of the required phases of project development per the ELC. We also
              determined whether the Work Breakdown Schedule contained key deliverables.
           C. Reviewed the CADE 2 Daily Processing Business Systems Requirements Report to
              determine whether requirements and any subsequent changes were documented and
              approved.
           D. Reviewed the CADE 2 Daily Processing Requirements Traceability Matrix to identify
              any ongoing or open issues that should be addressed before exiting certain project
              milestones. In addition, we traced any open issues to the ITRAC System to determine
              whether risks were identified and tracked.
II.        Reviewed the Program Test Plan, Project Design Specification Reports, and Program
           Interface Inventory, to evaluate whether controls are operating as designed to mitigate
           risks with modifying the current processing from weekly to daily.
III.       Determined whether applications, operating system, and hardware for daily processing
           meet the requirements of the National Institute of Standards and Technology security




1
    See Appendix VI for a glossary of terms.
2
    See Appendix IV for an overview of the ELC.
                                                                                               Page 13
                                The Customer Account Data Engine 2
                        Is Making Progress Toward Achieving Daily Processing,
                     but Improvements Are Warranted to Ensure Full Functionality



          standards, Federal Information Security Management Act,3 Office of Management and
          Budget Memos, Internal Revenue Manuals, and applicable Federal regulations and laws.
          A. Evaluated the Daily Processing System Security Plan against the National Institute of
             Standards and Technology and Federal Information Security Management Act
             requirements.
          B. Reviewed the results from an independent contractor’s Threat Susceptibility
             Assessment.
          C. Reviewed the data encryption plan to ensure data is secured from outside threats.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the ELC and related IRS guidelines and
the processes followed in the development of information technology projects. We evaluated
these controls by conducting interviews with management and staff, attending CADE 2 meetings
of the Program and project teams, and reviewing project documentation such as the project
charter, various project plans, and other documents that provided evidence of whether ELC
systems development processes were followed.




3
    44 U.S.C. §§ 3541–3549.
                                                                                           Page 14
                           The Customer Account Data Engine 2
                   Is Making Progress Toward Achieving Daily Processing,
                but Improvements Are Warranted to Ensure Full Functionality



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Diana Tengesdal, Acting Director
Kimberly R. Parmley, Audit Manager
K. Kevin Liu, Lead Auditor
Ryan M. Perry, Senior Auditor
Frank O’Connor, Program Analyst
Michael T. Mohrman, Information Technology Specialist




                                                                                      Page 15
                           The Customer Account Data Engine 2
                   Is Making Progress Toward Achieving Daily Processing,
                but Improvements Are Warranted to Ensure Full Functionality



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Associate Chief Information Officer, Modernization – Program Management Office
OS:CTO:MP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Procurement OS:A:P
Director, Risk Management Division OS:CTO:SP:RM
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W:S
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                 Page 16
                                The Customer Account Data Engine 2
                        Is Making Progress Toward Achieving Daily Processing,
                     but Improvements Are Warranted to Ensure Full Functionality



                                                                                                Appendix IV

                         Enterprise Life Cycle Overview

 The ELC is the IRS’s standard approach to business change and information systems initiatives.
 It is a collection of program and project management best practices designed to manage business
 change in a successful and repeatable manner. The ELC addresses large and small projects
 developed internally and by contractors. The ELC includes such requirements as:
     •    Development of and conformance to enterprise architecture.
     •    Improving business processes prior to automation.
     •    Use of prototyping and commercial software, where possible.
     •    Obtaining early benefit by implementing solutions in multiple releases.
     •    Financial justification, budgeting, and reporting of project status.
 In addition, the ELC improves the IRS’s ability to manage changes to the enterprise, estimate the
 cost of changes, and engineer, develop, and maintain systems effectively. Figure 1 provides an
 overview of the phases and milestones within the ELC. A phase is a broad segment of work
 encompassing activities of similar scope, nature, and detail and providing a natural breakpoint in
 the life cycle. Each phase begins with a kickoff meeting and ends with an executive
 management decision point (milestone) at which IRS executives make “go/no-go” decisions for
 continuation of a project. Project funding decisions are often associated with milestones.
                    Figure 1: Enterprise Life Cycle Phases and Milestones

                Phase                                  General Nature of Work                          Milestone
 Vision and Strategy/                  High-level direction setting. This is the only phase for
                                                                                                           0
 Enterprise Architecture Phase         enterprise planning projects.
 Project Initiation Phase              Startup of development projects.                                    1
                                       Specification of the operating concept, requirements, and
 Domain Architecture Phase                                                                                 2
                                       structure of the solution.
 Preliminary Design Phase              Preliminary design of all solution components.                      3
 Detailed Design Phase                 Detailed design of solution components.                            4a
 System Development Phase              Coding, integration, testing, and certification of solutions.      4b
                                       Expanding availability of the solution to all target users.
 System Deployment Phase                                                                                   5
                                       This is usually the last phase for development projects.
                                                                                                        System
 Operations and Maintenance Phase      Ongoing management of operational systems.
                                                                                                       Retirement
Source: The Enterprise Life Cycle Guide.


                                                                                                          Page 17
                           The Customer Account Data Engine 2
                   Is Making Progress Toward Achieving Daily Processing,
                but Improvements Are Warranted to Ensure Full Functionality



                                                                               Appendix V

            Transition State 1 Integration Reviews

    Integration Review                                       Outcomes


Integrated Management        Validates that relationships and integration expectations between the
Planning Review              Program and its projects are appropriately defined and well understood.

                             Validates that the Program-level requirements allocated to projects are in
                             alignment with the Program solution; that Program-level requirements
Integrated Requirements
                             have been appropriately fulfilled through decomposition to project-level
Reviews
                             requirements; and that all requirements dependencies are identified,
                             supported, and fulfilled.

Integrated Solution          Validates that Program strategies for solution design are aligned for the
Planning Review              Transition State solution.

                             Validates that the project-level designs support the solution’s logical
Integrated Logical Design
                             implementation as defined in the Program Roadmap and that the projects
Review
                             collectively will deliver an integrated and cohesive solution.

                             Validates that the project-level designs support the solution’s physical
Integrated Physical Design
                             implementation as defined in the Program Roadmap and that the projects
Review
                             collectively will deliver an integrated and cohesive solution.

                             Validates that the Program and project plans for testing the solution
Integrated Test Planning
                             components individually and the integrated Program solutions
Review
                             collectively are in alignment and comprehensive.

                             Validates that solution components have been accurately and
Integrated Test Readiness    comprehensively tested at the Unit and Developer level and that the
Review                       Program is ready to begin testing of the Integrated Transition State
                             Solution.


                                                                                        Page 18
                                The Customer Account Data Engine 2
                        Is Making Progress Toward Achieving Daily Processing,
                     but Improvements Are Warranted to Ensure Full Functionality



      Integration Review                                                  Outcomes


 Integrated Organizational           Validates that the Program understands the impact the solution has on the
 Readiness Review                    business, and validates organizational readiness to adopt the new solution.

                                     Validates that the solution components, production environment, and
 Integrated Deployment               plans for deployment are assessed against defined readiness criteria. The
 Readiness Review                    Program will make a “go/no-go” decision based on the results of the
                                     Deployment Readiness Review.

Source: IRS Customer Account Data Engine 2, 2nd Quarter Briefing to the Treasury Inspector General for Tax
Administration officials, dated July 14, 2010.




                                                                                                        Page 19
                           The Customer Account Data Engine 2
                   Is Making Progress Toward Achieving Daily Processing,
                but Improvements Are Warranted to Ensure Full Functionality



                                                                            Appendix VI

                           Glossary of Terms

           Term                                       Definition
Business Rule              A statement that defines or constrains some aspect of the
                           business (see Business Rule Sets).
Business Rule Sets         A group of business rules related to a common topic or business
                           decision.
Customer Account Data      A major component of the IRS modernization program. The
Engine                     system consists of current and planned databases and related
                           applications that work with the IRS Master File system.
Daily Processing Project   A project under the CADE 2 Program that, when completed,
                           will change weekly individual taxpayer account processing to
                           daily processing.
Database Implementation    A project under the CADE 2 Program intended to implement the
Project                    newest version of the relational database.
Enterprise Architecture    A unifying overall design or structure for an enterprise that
                           includes business and organizational aspects as well as
                           technology aspects. It divides the enterprise into its component
                           parts and relationships and provides the principles, constraints,
                           and standards to help align business area development efforts in
                           a common direction. Additionally, it ensures subordinate
                           architectures, business system components, and multiple
                           projects fit together into a consistent, integrated whole.
Enterprise Life Cycle      A structured business systems development method that requires
                           the preparation of specific work products during different phases
                           of the development process.
Executive Steering         Committee with oversight responsibilities for investments,
Committee                  including validating major investment business requirements
                           and ensuring enabling technologies are defined, developed, and
                           implemented.
Individual Master File     The IRS database that maintains transactions or records of all
                           individual tax accounts.

                                                                                       Page 20
                             The Customer Account Data Engine 2
                     Is Making Progress Toward Achieving Daily Processing,
                  but Improvements Are Warranted to Ensure Full Functionality



              Term                                       Definition
Infrastructure                The fundamental structure of a system or organization. The
                              basic, fundamental architecture of any system (e.g., electronic,
                              mechanical, social, political) determines how it functions and
                              how flexible it is to meet future requirements.
Integrated Data Retrieval     The IRS computer system capable of retrieving or updating
System                        stored information; it works in conjunction with a taxpayer’s
                              account records.
Integrated Production Model   Intended to be a data store to meet IRS needs for data analytics
                              and long-term reporting and a source for other types of analytic
                              data that supplement the transactional core data store.
Item Tracking Reporting and   An information system used to track and report on issues, risks,
Control System                and action items in the modernization effort.
Master File                   The IRS database that stores various types of taxpayer account
                              information. This database includes individual, business, and
                              employee plans and exempt organizations data.
Milestone                     Scheduled time period for providing a go/no-go decision point
                              in a program or project. It can be associated with funding
                              approval to proceed.
National Institute of         A nonregulatory Federal agency, within the Department of
Standards and Technology      Commerce, responsible for developing standards and guidelines,
                              including minimum requirements for providing adequate
                              information security for all Federal Government agency
                              operations and assets.
Phase                         Broad segment of work encompassing activities of similar
                              scope, nature, and detail and providing a natural breakpoint in
                              the life cycle.
Processing Year               The calendar year in which the tax return or document is
                              processed by the IRS.




                                                                                         Page 21
                           The Customer Account Data Engine 2
                   Is Making Progress Toward Achieving Daily Processing,
                but Improvements Are Warranted to Ensure Full Functionality



           Term                                       Definition
Project Tailoring Plan     ELC Guidance 2.16.1 (pages 66-67) states ELC tailoring must
                           be documented and approved in a Project Tailoring Plan. This
                           plan must identify all tailoring decisions and explain the
                           rationale and impact of each decision. Impact should include a
                           discussion of any risk associated with the change. The approved
                           tailoring decisions must be reflected in the project Work
                           Breakdown Structure and the project schedule. All approved
                           waivers and deferrals for tailoring decisions must be maintained
                           in the projects repository.
Relational Database        A collection of data items organized as a set of formally
                           described tables from which data can be accessed or
                           reassembled in many different ways without having to
                           reorganize the database tables.
Requirement                A formalization of a need and statement of a capability or
                           condition that a system must have or meet to satisfy a contract,
                           standard, or specification.
Stakeholders               An individual or organization that is materially affected by the
                           outcome of the system. Key stakeholders represent both
                           business and technical functions that fully participate in the
                           architecture development effort to ensure that directional
                           guidance is both accurate and sufficient. They are empowered
                           to make project and architectural decisions. Examples of project
                           stakeholders include the customer, the user group, the project
                           manager, the development team, and the testers.
Work Breakdown Schedule    A deliverable-oriented grouping of project elements that
                           organize and define total work scope of the project.




                                                                                       Page 22
               The Customer Account Data Engine 2
       Is Making Progress Toward Achieving Daily Processing,
    but Improvements Are Warranted to Ensure Full Functionality



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 23
           The Customer Account Data Engine 2
   Is Making Progress Toward Achieving Daily Processing,
but Improvements Are Warranted to Ensure Full Functionality




                                                       Page 24
           The Customer Account Data Engine 2
   Is Making Progress Toward Achieving Daily Processing,
but Improvements Are Warranted to Ensure Full Functionality




                                                       Page 25
           The Customer Account Data Engine 2
   Is Making Progress Toward Achieving Daily Processing,
but Improvements Are Warranted to Ensure Full Functionality




                                                       Page 26
